<html>
<title> - H.R. 2115, THE VOTER REGISTRATION EFFICIENCY ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
            H.R. 2115, THE VOTER REGISTRATION EFFICIENCY ACT

=======================================================================



                                HEARING


                               before the

                           COMMITTEE ON HOUSE

                             ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                  Held in Washington, DC, June 4, 2013

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet
                             www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
82-232                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 JUAN VARGAS, California
RICHARD B. NUGENT, Florida

                           Professional Staff

                      Kelly Craven, Staff Director
                  Jamie Fleet, Minority Staff Director


            H.R. 2115, THE VOTER REGISTRATION EFFICIENCY ACT



                         TUESDAY, JUNE 4, 2013

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 12:03 p.m., in room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
(chairman of the committee) presiding.
    Present: Representatives Miller, Rokita, Nugent, and Brady.
    Staff Present: Kelly Craven, Staff Director; Peter 
Schalestock, Deputy General Counsel; Joe Wallace, Legislative 
Clerk; Yael Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Linda Ulrich, Director of Oversight; 
Bob Sensenbrenner, Elections Counsel; Jamie Fleet, Minority 
Staff Director; Matt Pinkus, Senior Policy Analyst; Khalil 
Abboud, Minority Elections Staff; Thomas Hicks, Minority 
Elections Counsel; Greg Abbott, Minority Professional Staff 
Member; and Eddie Flaherty, Minority Professional Staff Member.
    The Chairman. If the witness will come to the table, we 
spent a little more time in the markup than we thought, but we 
are delighted to have them here. We will begin the hearing 
portion of our committee on House Administration regarding H.R. 
2115, the Voter Registration Efficiency Act. First of all, let 
me announce that the hearing record will remain open for 5 
legislative days so that any members that want to submit any 
materials for the record may do so to be included therein. 
Again, a quorum is present so we can proceed.
    The purpose of our hearing today is to discuss the need for 
a simple legislative fix to the National Voter Registration Act 
that would assist states in their efforts to maintain up to 
date and accurate voter lists and hopefully reduce some of the 
administrative costs associated with identifying duplicate 
registrations in multiple States. And in doing those things, 
H.R. 2115 will also increase confidence in our election by 
making it less likely for voters to be registered in more than 
one State at a time, whether that is by accident or whether 
that is by intent. And obviously, if a voter is not registered 
in more than one State, it is much less likely that they will 
be able to vote in more than one State.
    According to a February 2012 study commissioned by the Pew 
Center of the States, one out of eight registrations in the 
United States are inaccurate and approximately 2.7 million 
people have active registrations in multiple States. As those 
figures show these problems are not imaginary. In 2004, the New 
York Daily News examined voter registrations in Florida and New 
York City, not even the whole State just in the city. And they 
found about 46,000 people were registered to vote in both 
States and 400 or more who had actually voted in both. That 
same year, the Cleveland Plain Dealer found 27,000 people 
registered in Ohio and Florida, and about 400 who had voted in 
both States. Because of these findings, States have taken steps 
on their own to try and reduce double registration. Kansas 
actually initiated a cross-State matching program that my State 
of Michigan and Secretary Bennett's State of Arizona have both 
belonged to that is designed to help identify people registered 
in multiple States so that the voter rolls can be corrected.
    Another program called the Electronic Registration 
Information Center has many other purposes, but it also helps 
its member States to identify double registrations. Even with 
programs like this in place, double registration and double 
voting, it is still happening. In fact, just last year a 
candidate actually in Maryland was charged with illegally 
voting in both Maryland and Florida in 2006 and 2010. This was 
a candidate for Congress that voted in two separate States, 
twice.
    Finding double registrations is only one part of the 
process. The next step is removing any of the registrations and 
as Michigan discovered when it was sued for trying to eliminate 
double registration, the NVRA makes that both difficult and 
expensive. As a former Secretary in Michigan, I am certainly no 
stranger to the challenges election officials face when trying 
to comply with section 8 of NVRA, the section which requires 
each State to implement some form of a list maintenance program 
that keeps the voter registration current.
    I was very aware of these challenges when I left office 
back in the day 2003, and since then, we haven't seen the much 
needed updates to NVRA which is now two decades old. And this 
is occurring at a time when nearly every State, and nearly 
every State really is up against severe budgetary constraints 
further challenged their ability to administer elections, no 
less implement list maintenance programs was the challenge, as 
I say, years ago and I am sure it has not gotten any easier for 
the secretaries and election administrators in those States.
    And today we are here to listen to our witnesses about 
their experiences with list maintenance and the tools or 
information that they need to keep their list current. I am 
especially interested in hearing their feedback on this bill 
that we are considering today, H.R. 2115, which Congressman 
Rokita and I introduced to help assist States with this 
mandate.
    The Voter Registration Efficiency Act is simple, it 
requires new State residents who are applying for a driver's 
license to notify the State of their intent to vote in that 
State. If so, the previous State of residence is notified and 
then the lists are updated accordingly. The NVRA requires motor 
vehicle offices to offer voter registration, this bill will go 
one step further and hopefully save States some time and money 
in their efforts to keep their lists accurate.
    Obviously the foundation of our democracy is the 
fundamental right to vote as we just had this very large debate 
here during the mark as well. And the Constitution tasks each 
State with the immense responsibility of administering and 
protecting that right. And as we seek ways to help the States, 
we must keep in mind their challenges and avoiding costly 
mandates that inhibit their ability to protect the integrity of 
our system, and instead, try to find ways to alleviate those 
burdens.
    This bill, again, I think serves to do just that. And I do 
believe we can agree certainly on two things, all eligible 
voters should have the opportunity to vote, but just one time 
in any election. And our State election administrators should 
be given every tool to allow them to protect the integrity of 
the process. I believe this legislation is going to help 
provide States with just such a tool to ensure more accurate, 
qualified voter lists and to preserve the integrity of our 
electoral process.
    I certainly appreciate both the witnesses coming, all three 
of the witnesses for coming, and I will be making a more formal 
intro in just a moment. But I would like, at this time, to 
recognize my colleague and ranking member of the committee, Mr. 
Brady, for his opening statement.
    Mr. Brady. Thank you, Madam Chairman. I thank you for 
holding this important hearing. I appreciate the chairman's 
work in linking State voter registration processes to apply for 
renewing a driver's license. In 1993, Congress enacted the 
National Voter Registration Act, better known as the motor 
voter law. While motor voter has registered thousands of voters 
who may not have registered otherwise, it is not perfect.
    Congress can strengthen motor voter in many ways such as 
what is proposed here, the legislation we are discussing today 
is a welcome start to improving the administration's for 
elections for Americans. I ask any consideration of this 
legislation we examine the inclusion of some sort of failsafe 
voting procedure to ensure this bill results is no 
disenfranchisement whatsoever. No American should lose the 
right to vote because of a clerical or bureaucratic error. And 
I thank you for, Madam Chairman, again, for holding this very 
important hearing. I look forward to the testimony from our 
witnesses today.
    The Chairman. I thank the gentleman very much. Does any 
other member wish to give an opening statement? The gentleman 
from Florida.
    Mr. Nugent. Just briefly I just want to make a point when 
you start talking about duplicate voters, once again Florida 
stood out when you brought that up, but back in 2004, there was 
a New York Daily News article that found 46,000 New Yorkers 
were eligible to vote in both New York and Florida. And so I 
think that anything that we can do to strengthen, say, one vote 
per person. I came from Chicago, and it used to be vote early 
and often and dead vote twice. But we want to make sure that 
one vote per person, and I think this goes a long ways in 
ensuring that, so with that, I yield back. Thank you.
    The Chairman. I thank the gentleman. It is interesting 
because when you come from a State like Michigan or New York, 
Pennsylvania, whatever, we all like to winter as we get older 
in Florida, and that is apparently what is happening with this 
dual voter registration. So we think this bill will be an easy 
way to assist the respective States.
    Let me just take a moment to introduce our witnesses. First 
of all Secretary of State Ken Bennett, we welcome you so very 
much taking time to come and talk to the committee. The 
Secretary was appointed by Governor Jan Brewer to replace her 
as Secretary of State. He has been serving there since 2009, he 
served four terms in the State Senate from 1999 to 2007, served 
as Senate President in his final 4 years. He served as 
Republican floor leader in 2002, was chairman of the Senate 
Education Committee. And prior to joining the legislature, 
Secretary Bennett was a member of the Arizona State Board of 
Education for 7 years. President of the Board in 1996, and then 
in 1998, and he also served on the Arizona charter schools 
board for 3 years and was the founding member of the 
Educational Leaders Council in Washington, D.C. So we welcome 
you very much, Mr. Secretary, for coming.
    Mr. Bennett. Thank you.
    The Chairman. Chris Thomas actually has been our elections 
director in Michigan since 1981, not to date you, we are dating 
ourselves here. He served under four different Secretaries of 
State, including myself, and certainly continues to serve under 
our current Secretary of State, Ruth Johnson. And I would just 
say this sincerely, he is the go-to guy I think nationally on 
elections. And I don't just say that because you happen to be 
sitting in front of me. I think that is widely known by the 
NASS, National Association of Secretaries of State, I know he 
is the president of NASED, National Association of Election 
Directors. And many of the improvements that have been made in 
Michigan, Secretaries of State like to take credit for, but I 
will tell you the brains behind most of it, really, has been 
Chris Thomas. He has got a great vision for how we keep our 
elections open free and fair; how to make sure that every 
person who is eligible to vote is registered to vote; how we 
can do a better job all the time on increasing participation 
from all of these who are eligible.
    And I would just point out it was sort of interesting, you 
actually began your career, I think, on this committee back in 
the day, back in the day I won't mention the year, back in the 
day. And then went onto the FEC, et cetera, et cetera. So 
again, we just appreciate you coming, Chris, and look forward 
to your testimony on this.
    And our third witness, Ms. Elisabeth MacNamara, we 
certainly welcome you to the committee. We appreciate you 
taking the time to come here today. Ms. MacNamara is the 18th 
president of the League of Women Voters in the United States, 
chair of the League of Women Voters Education Fund, served in 
this position since 2010. She joined the League in 1983, and 
has since served in leadership roles at all levels. In 1984, 
she joined the board of directors of the DeKalb League serving 
as court criminal justice chair, education committee chair, 
vice president, secretary, et cetera, has been President of 
that league as well. And she joined the board of directors of 
the League of Women Voters in Georgia in 1999, served as 
President of that board beginning in 2001, et cetera. A long 
distinguished career, and we certainly welcome you, welcome all 
the witnesses as well.
    We have received your written testimony, all the members do 
have that. And at this time, the chair would recognize 
Secretary Bennett for his testimony and the floor is yours, 
sir. Thank you.

 STATEMENTS OF HON. KEN BENNETT, SECRETARY OF STATE, ARIZONA; 
 ELISABETH MacNAMARA, PRESIDENT, LEAGUE OF WOMEN VOTERS OF THE 
  UNITED STATES; AND CHRIS THOMAS, STATE ELECTIONS DIRECTOR, 
                            MICHIGAN

                 STATEMENT OF HON. KEN BENNETT

    Mr. Bennett. Thank you, Madam Chair and members, I am Ken 
Bennett, Secretary of State from the State of Arizona. I never 
really anticipated being the chief election officer of my 
State, but I have been such for the last 4\1/2\ years. Arizona 
has about 6\1/2\ million residents, about 3.2 million 
registered voters, about 36 percent Republican, about 33 
percent Independent, we have a large independent group of 
voters in Arizona, about 30 percent Democrat.
    I am happy to be here to testify on this legislation, 
Arizona supports this legislation. In fact, we supported it so 
much we have been doing something very similar to it. Since 
about 2008, 2009, we were one of the first seven States that 
joined the Interstate Cross-check Program where we began 
sharing our voter data with seven other States that has now 
grown to 22 States. And once an election occurs in Arizona we 
share our file as to who voted, obviously not how they voted, 
but who voted.
    We share four pieces of information, their last name, their 
first name, date of birth, and the last four digits of their 
Social Security number. In our most recent cross-check which 
was done on the votes that occurred in the 2012 election, the 
22 States, including Arizona, shared about 84 million records 
of voters who had voted in those 22 States.
    Obviously, that would have been much more if it were 
nationwide. But essentially, we do this voluntarily at no cost 
to any of the States to help ensure that our voter registration 
files are as current as they possibly can be. Of the data that 
was shared in 2012, we had over 45,000 duplicate records 
affecting voters in Arizona that came back to us from those 
other States.
    Typically, if we didn't have this program, we would wait 
for another two Federal election cycles for NVRA, to kick in, 
and for those 45,000 to eventually be removed from our rolls, 
but this allows us to--after checking and making sure that the 
matches are, in fact, hard matches, there is a soft match and a 
hard match process. We take very seriously when a match occurs 
and each one is checked and verified, otherwise we would have 
waited perhaps 4 or more years for the removal of those 
duplicate registrations.
    This program is not unlike what we really do in our State 
as a part of HAVA, our office is the chief elections office, 
serves with our statewide voter database to allow the counties 
to communicate with each other. In Arizona, we have 15 
counties, county recorders oversee the voter registration in 
Arizona, we have eight Democrat county recorders, seven 
Republican recorders, but they work very closely together. And 
just since HAVA came in to being in Arizona and throughout the 
country, we have processed over 670,000 duplicate registrations 
as people move from one county to another. Over 300,000 death 
records, over 75,000 court records.
    So it is an important part of how we maintain current and 
up-to-date voter registrations within our State.
    H.R. 2115, I think, would be a very positive step forward 
in causing that same type of interaction and communication 
between the States, between our motor vehicle record offices, 
and then their contact back to the chief election officials in 
the counties from there.
    Obviously, the main goal of this legislation is to enhance 
the accuracy of our voter registration records throughout the 
country, but I think a side benefit would be to deter duplicate 
voting, because of this interstate cross-check program that we 
have been running in Arizona. In the first cycle, after we 
shared data with the other States, we had about ten couples 
that--probably about 15 individuals because there were some 
couples and individuals who were found to have voted in Arizona 
and another State. We had a couple who voted in Kansas and 
Arizona. Two individuals had voted in Colorado and Arizona, and 
one couple that voted in Nevada, Arizona and attempted to vote 
in Kansas. So we are using this information to deter that and 
actually in these cases they are being prosecuted.
    The last thing I will say, I see my time is short, it is 
very critical and I applaud the legislation that it keeps the 
notification process away from a one-size-fits-all type of an 
approach and we would be happy as a member of the national 
associate personally, as a member of the National Association 
of Secretaries of State to offer our organization or sister 
organizations to help make sure that the details of how the 
notifications go from State to State are worked out. But I will 
be happy to answer any questions as we get into those details 
if you have any questions.
    The Chairman. Thank you very much. Thank you very much 
Secretary Bennett.

    [The statement of Mr. Bennett follows:]

    [GRAPHIC] [TIFF OMITTED] 82232A.003
    
    [GRAPHIC] [TIFF OMITTED] 82232A.004
    
    [GRAPHIC] [TIFF OMITTED] 82232A.005
    
    The Chairman. At this time the chair recognizes Chris 
Thomas, State Elections Director, for his testimony.

                   STATEMENT OF CHRIS THOMAS

    Mr. Thomas. Good morning, Madam Chair. It is a pleasure to 
be here before you at the helm of this committee. And I must 
say that I enjoy working with you for your two terms as 
Secretary of State in Michigan, we did great things for 
Michigan's election system during that period. I also extend 
Secretary Johnson's greetings to you and members of the 
committee. I thank you and Congressman Rokita for introducing 
this bill and holding a hearing on 2115, the Voter Registration 
Efficiency Act.
    I believe it is appropriate to make sensible adjustments to 
the National Voter Registration Act as we celebrate the 20th 
anniversary of this good law. This amendment to the NVRA adds 
one new requirement: The Department of Motor Vehicles (DMV) 
will ask an applicant for a driver's license whether the 
applicant intends the new State to serve as his or her 
residence for voting purposes.
    Currently, the DMVs require every applicant coming from 
another State to surrender their driver's license from their 
former State of residence. Every State has a good reason to 
ensure that drivers don't have multiple driver's licenses in 
their wallets or purses. Further, the DMV has informed the 
former State of residence of the surrendered driver's license. 
The problem addressed by this legislation is the unnecessary 
retention of voter registration records of individuals who have 
left the State and applied for a driver's license in their new 
State of residence.
    The vast majority of these voters who have moved from one 
State to another have no intention of remaining as a resident 
of the former State for voting purposes. In fiscal year 2012, 
we had over 73,000 individuals reported to Michigan as having 
moved to another State. Under current practices, these 
individuals must remain on our qualified voter file for two 
November Federal elections after cancellation notice is sent to 
them. They may remain on the file for as long as 4 years after 
the notice is sent.
    To be clear, there are instances where an individual who 
makes a temporary move to another State is required to apply 
for a driver's license, even though the individual is not 
relinquishing his residence in the former State. Both the NVRA 
and the Help America Vote Act have as their purpose: The 
improvement of the accuracy integrity of voter registration 
files used in Federal elections. Retaining tens of thousands of 
non-residents on our voter registration files does not further 
the purpose of either Federal law.
    H.R. 2115 would leverage the relationship established by 
the NVRA and HAVA between election officials and motor vehicle 
administrators to make voter registration files more accurate 
by permitting the removal of records of voters who have moved 
to another State and have affirmatively stated to the DMV that 
they now reside in a new State for voting purposes.
    The conclusion of a 2008 Federal court case in Michigan was 
that a voter may reside in one State for driving purposes and 
in another State for voting purposes. The court found that 
States do not determine whether applicants moving to a State 
are intending the new State to be their residence for voting 
purposes. An affirmative statement that the new State is the 
residence for voting purposes was the necessary requirement 
under the court's reasoning.
    Recent Federal legislation and interstate driver license 
compact all have a similar requirement in regards to residency, 
one license, one record. The Federal REAL ID Act of 2005 
prohibits a REAL ID driver's license applicant from holding 
more than one REAL ID driver's license. Further, the American 
Association of Motor Vehicle Administrators has adopted a 
commonsense policy: One license, one driving control record. 
Michigan, like all other States, have implemented this policy 
through the State vehicle code.
    In summary, H.R. 2115 requires the DMV to ask new 
applicants two questions. The first as already being asked, did 
the individual reside in another State prior to applying for a 
license? The second is new, does the individual intend the new 
State to serve as the individual residence for voting 
registration purposes? Under the amendment, the DMV will attach 
an indicator to the list of those who have surrendered their 
license as already being sent to the former State of residence. 
The indicator could be as simple as yes or no under the column 
heading ``residence for voting purposes'' where now licensed. 
The residence information will be then transmitted to the State 
election official thus providing confirmation from the 
applicant necessary to retain or cancel the voter registration.
    This amendment is a commonsense adjustment to the NVRA that 
protects voters who are only making a temporary move to another 
State while enabling States to more efficiently manage their 
voter registration file for the vast majority of applicants who 
are making a permanent move to a new state.
    I thank the committee for the opportunity to testify on 
this amendment, and personally thank Chairman Miller for 
introducing the legislation. Thank you.
    The Chairman. I thank the gentleman for his testimony.
    [The statement of Mr. Thomas follows:]
    [GRAPHIC] [TIFF OMITTED] 82232A.006
    
    [GRAPHIC] [TIFF OMITTED] 82232A.007
    
    [GRAPHIC] [TIFF OMITTED] 82232A.008
    
    [GRAPHIC] [TIFF OMITTED] 82232A.009
    
    [GRAPHIC] [TIFF OMITTED] 82232A.010
    
    [GRAPHIC] [TIFF OMITTED] 82232A.011
    
    [GRAPHIC] [TIFF OMITTED] 82232A.012
    
    [GRAPHIC] [TIFF OMITTED] 82232A.013
    
    The Chairman. At this time, the chair recognizes Ms. 
MacNamara for her testimony.

                STATEMENT OF ELISABETH MacNAMARA

    Ms. MacNamara. Thank you, Madam Chair. Madam Chairman, 
members of the committee, I am very pleased to be here today to 
voice the League's support for the basic goal H.R. 2115, 
providing a mechanism to ensure that voters are not registered 
in more than one State, and to make some suggestions for 
avoiding possible unintended consequences that could result 
from the legislation as currently drafted. The Census Bureau 
reports that approximately 4 million individuals, age 16 and 
over, moved from one State to another between 2011 and 2012. 
Though we are not aware of solid data on the number of voters 
who move from one State to another, certainly a significant 
number has been indicated here this morning have done so. Thus, 
H.R. 2115 aims at a worthy goal. We are concerned, however, 
about the specific mechanisms of the bill.
    Our concerns come in four areas: First, the mechanism will 
likely result in inaccurate removal; two, it could interfere 
with the motor voter registration process; three, it is 
technologically outdated rather than modern, efficient and cost 
effective; and four, the legislation does not deal with a 
larger but similar problem. In our view, these are all 
surmountable problems.
    The mechanism in H.R. 2115 will likely result in erroneous 
removal to properly registered voters because of inaccurate 
data for matching individuals to voter registration records 
without adequate safeguards. For example, errors likely will be 
introduced under H.R. 2115 at multiple steps beginning with the 
motor vehicle authority in one State copies the data from the 
applicant's paper application form and sends it to the second 
State's motor vehicle authority.
    The best way to improve accuracy would be to require the 
data be handled electronically. The benefits of electronic 
transfer are demonstrated by the fact that many States are 
already providing for it. According to the Brennan Center, at 
least 23 States currently or will soon have fully or 
substantially automated voter registration at DMVs. When the 
voter registers or updates their information at the DMVs, the 
information is electronically transmitted to election 
officials.
    In addition, the Help America Vote Act already requires 
States to maintain their lists on a statewide computerized 
voter registration list. In any case, it is vitally important 
for the legislation to make adequate safeguards to prevent 
incorrect removals. The best way is to provide written notice 
to the voter as in the NVRA, but H.R. 2115 does not seem to 
maintain this fundamental safeguard for interstate movers.
    We are also concerned that the current mechanism in H.R. 
2115 could interfere with the voter registration process. 
Again, this is a solvable problem. The motor vehicle 
registration application form under the NVRA is simple, clear, 
and unambiguous. H.R. 2115 as currently written, however, adds 
three new requirements for applicants to answer that will 
likely result in erroneous rejections as well as confusing the 
applicant and providing ambiguous or inconsistent information 
to election officials.
    Under H.R. 2115, even if the applicant is fully eligible to 
vote, and fully and correctly fills out the motor vehicle form, 
failure to answer any of the three questions could result in 
rejection because of these new requirements.
    In addition, by requiring duplicative information, the 
draft legislation creates confusion for the applicant. For 
example, the motor vehicle form already requires the intent to 
register in the new State, that is what an application is. By 
requiring the intent question to be answered a second time, the 
legislation simply confuses.
    In addition, the requirements add ambiguity for election 
officials. What if, for example, the applicant provides 
apparently conflicting answers? What happens if the applicant 
indicates he or she does not intend for the new State to serve 
as the voting residence, but still fills out the motor voter 
application form?
    The most effective way to reduce confusion and ambiguity is 
to modify those elements of the proposed legislation that are 
duplicative or the current processes under the NVRA. Much of 
the information from the driver's license applicant required in 
H.R. 2115 is already included on the National voter 
registration application form under the NVRA. The purpose of 
H.R. 2115 could be fulfilled by requiring information from the 
voter motor voter application to be transferred to another 
State when the applicant was previously registered to vote in 
another State.
    The Census Bureau also reports that nearly 23 million 
individuals moved within a State between 2011 and 2012. And 
with approximately 5 million moving from one county to another. 
And I see that I am running out of time but would be happy to 
answer questions about our concerns about interstate moves. The 
League looks forward to working with you further on this 
legislation and thank you very much.
    The Chairman. I thank the gentlelady very much for her 
testimony and I thank all of you for your testimony.
    [The statement of Ms. MacNamara follows:]
    [GRAPHIC] [TIFF OMITTED] 82232A.014
    
    [GRAPHIC] [TIFF OMITTED] 82232A.015
    
    [GRAPHIC] [TIFF OMITTED] 82232A.016
    
    [GRAPHIC] [TIFF OMITTED] 82232A.017
    
    [GRAPHIC] [TIFF OMITTED] 82232A.018
    
    [GRAPHIC] [TIFF OMITTED] 82232A.019
    
    [GRAPHIC] [TIFF OMITTED] 82232A.020
    
    [GRAPHIC] [TIFF OMITTED] 82232A.021
    
    The Chairman. I had just taken a couple of notes while were 
you talking here. The gentlelady mentioned about the electronic 
registration, et cetera, 23 States which I have a list of all 
the different States here, but I will just mention in 
Michigan--again, I am mostly familiar with Michigan more so 
than obviously the other States, but I think we are the 
forerunner of the electronic registration, what we still 
continue to call the qualified voter list, which was an 
incredible product really, and I don't say that without some 
prejudice, but I will note that we were noted in the Ford, 
Carter Presidential Commission report as a national model. And 
in Michigan, unlike many other States where usually the 
counties operate the voter registration rolls in our State, it 
is every city, every village, every township clerk, to the 
extent that we have almost 1800 various voter registration 
lists that were individually maintained previous to our 
qualified voter file unless we did that electronically.
    And it was a little bit easier for us, I will agree, than 
other States because Michigan is only one of only three States 
in the Nation where the Secretary is also the motor vehicle 
administrator. I think it is Michigan, Illinois and Maine, I 
believe are the three. So the motor voter had its genesis in 
Michigan, so we had the data already, we had the database 
already, but we went through our file and eliminated three 
quarters of a million registrations once we were able to 
electronically meld this in our State and dedupe all of that.
    And one thing that we also did, I am just mentioning this 
because I think it has some bearing on why we introduce this 
bill trying to help make sure that these lists are always up--
as clean as they possibly can and using technology, I think 
through the advantage of the voters, et cetera. We also passed 
a bill that said we don't care where you register to vote, but 
your voter registration address must match your driver address, 
wherever that is. And that deduped an incredible amount, as you 
might imagine even from the college towns in particular. I am 
always of the impression that if you are smart enough to go to 
college, you should be smart enough to get an absentee ballot 
and vote AV. And that is a criteria that is allowed in Michigan 
law. But again, it really helped, I think, clean up the list to 
make sure we didn't have duplicate registrations across the 
State because people are moving a lot, particularly college 
students as they are going to college as well.
    Mr. Thomas mentioned that the driver's licenses right now 
can't be duplicate in various States, and that is all through 
the database shared by AMBA I suppose, and so that is an 
important thing as well. And also I mentioned that 73,000 
people moved just in the last year, and yet you are required in 
our case, in our State, I am not sure how many moved--a lot of 
us moved to Arizona, unfortunately we are going to stop that. 
We keep our folks in Michigan, a lot of people do move, and 
yet, we are required under the current law--you can't take 
those off the list for at least 2 years, maybe 4 years which 
just does not seem to be a very good practice.
    As well, I guess my question, I would first start with 
Secretary Bennett, our whole impetus for this bill when we 
introduced it is to again make it as easy as possible for the 
secretaries for all the voting administrators to expedite their 
process, keep it free, fair and open. Is there anything that 
you would see in this particular bill that might cause that not 
to be a better situation or an expense, an expense as well?
    Mr. Bennett. Madam Chair, I don't see anything, I think the 
points made by Ms. MacNamara are cogent and can be considered 
as this legislation moves forward. I think some of the concerns 
about you are already asking one question, why ask it again, I 
think the points made by Mr. Thomas are that the first ask of 
the question, whether it is on a paper form or electronically, 
can serve as the question proposed by 2115. So I don't see 
anything here, Arizona is not one of the States that has motor 
voter under the Secretary's office, but because we were the 
first State to do online voter registration, and most of our 
citizens who do so do so coming through from our Motor Vehicle 
Department. We have very close ties with them and I don't see 
anything in the legislation that is going to complicate that or 
make it more expensive.
    The Chairman. Really, I would think that that is not 
particularly inherent to Arizona; it would seem like in every 
State, you would be much more likely to go to the DMV or the 
Secretary of State or whatever the case is to change your 
driver's license or address before you think about your voter 
registration. That, at least, has been our experience, I think, 
there as well. One of you, I think Mr. Thomas mentioned about 
REAL ID, which I was involved with. I also sit--I am vice chair 
of the Homeland Security Committee in the House here, I tell 
you before anything, we are Americans. And your identification, 
driver's license in particular, is your foundation of 
identification, you are using it to get on an airplane or to do 
anything else.
    So having good safeguards there and then working with voter 
registration as well is such a natural transition I think.
    So again I just appreciate all of you coming. I think this 
bill, if we can get it to the floor and get it moved, does have 
the potential to be a real step forward.
    I hope it will be embraced by the Secretaries of State as 
well nationally, and the election officers as well nationally. 
My only other question before my time expires here is that, 
curiosity, I was thinking as you were talking, Mr. Thomas, what 
has been the experience in Michigan, and I am not sure if other 
States are talking about utilizing new technology, the 
electronic poll books, and how would this impact that if at 
all? 
    Mr. Thomas. It will definitely impact the Kansas project 
interstate cross-checks, it really eliminates errors by 
election officials in terms of scanning voter history. The 
electronic poll books are far more accurate. What we have seen 
already is that when it shows somebody has voted, there is very 
little question whether that is accurate data, which has proven 
to be very beneficial. In terms of looking at what can be done 
with the data coming from the DMV, they use driver's license 
numbers for all their matching criteria.
    When that comes back to Michigan, it comes back with a 
driver's license number, and in some cases, the State even 
makes a copy of the license and send it back to Michigan. It 
makes a very accurate match, then, in terms of which voter has 
moved out of State. It is not whether the name and birthday and 
all that are accurate. It really goes number to number, which 
is a very efficient way to do that.
    The Chairman. So regardless of how an individual votes, 
whether they vote absentee, whether they show up at the polls 
or what have you, they really should assist?
    Mr. Thomas. Yes.
    The Chairman. Yes. At this time the chair would recognize 
the ranking member, the gentleman from Pennsylvania.
    Mr. Brady. Thank you, Madam Chairman. My only question 
would be that I understand from State to State, change your 
driver's license, you get taken off the previous State which I 
happen to support and agree with. Would it make any sense to 
have some registration materials maybe mandatory provide that 
they have some registration materials that you are being taken 
off a State giving them the opportunity, not mandatory asking 
you to register, but giving them the opportunity with the 
materials here that they could register right there, to 
register in a new State? Anybody?
    Mr. Thomas. Well, Congressman Brady, that is the law, the 
DMVs are mandated by Federal law to offer voter registration 
opportunity to every single person who comes in and either 
renews or applies for a new driver's license. When that person 
moves to the State, they should be asked. Now if you go look at 
the figures that come out every 2 years that the EAC publishes, 
unfortunately I think it shows that not all States are doing 
that equally. When you start seeing the percentage of 
registration far below 50 percent coming out of the DMV, then 
some serious questions need to be asked whether those DMVs are 
really offering voter registration opportunities. That is 
really more of an enforcement question.
    So what I like about this bill is it says, look, we are 
going ask you this question, and we are going to be mandated to 
ask the question, ``is this your State for voting purposes,'' 
whether or not you register to vote? But I certainly and 
sincerely hope that the DMVs' next step in the application 
process is offering that person the opportunity to register.
    Mr. Brady. When you asked the question that you want to 
relinquish your ability to vote in the previous State, is it 
mandatory that you ask them at that time? We do have materials 
here that allow you to vote in this State that you register for 
your driver's license.
    Mr. Thomas. It seems like the reasonable time to ask that. 
Different States do it at different points within their 
process. But really the question is not so much are you 
rejecting your former State, the question is, is this your 
State that you are applying for a license for? Is this your 
State for voting purposes? And if they answer ``yes'' to that, 
it seems to me the next obvious question is ``would you like to 
register to vote.'' We are going to sign you up right now on 
the spot, and that is the way it should be done.
    Mr. Brady. I appreciate that, thank you.
    Ms. MacNamara. Mr. Brady, I think that question is one of 
the concerns that it the League has, no matter how well 
educated you are. A lot of folks do not understand our election 
process, it is complex and varies greatly from State to State.
    Our concern with asking the question is this the State that 
you intend to register to vote in, is what is implied in that 
is that, you can chose whether or not the State of your 
residence is the State that you want to vote in.
    My son just recently moved from Virginia back to Georgia 
and had to go in and apply for a driver's license. He just 
graduated from medical school, and he has had a lot of exposure 
to elections through his mother. I promise you if you had asked 
him that question, he would have to call me, and say does this 
mean that I have an opportunity to say I would rather leave my 
registration in the State of Virginia and move my driver's 
license to Georgia, that is what we are concerned about, is 
that that is going to be confusing for voters. The mere fact 
that they are offered the opportunity to register, chose to 
register on the NVRA application should be sufficient evidence 
of intent because you are applying to register to vote in the 
State to which you were moving. And so we would just suggest 
that in achieving this very worthy goal that that question 
could be very confusing.
    Mr. Brady. How would you pose the question?
    Ms. MacNamara. I would suggest that everyone is supposed to 
be offered, under motor voter, the opportunity to register at 
the motor vehicle office. There are applications available for 
that. If you fill out that application, I think your intent is 
obvious, you are intending to register to vote at that time 
through the DMV.
    Asking the additional question, I do think suggests--we 
would suggest that you leave off the additional question and 
make the requirement that if the person fills out the motor 
voter registration form, that that is evidence of their intent 
that can be sent back to the State when--where they were 
registered and we would also suggest that that be done 
Secretary or election official to election official as opposed 
to having everything go from one DMV to an election official 
from the DMV to another DMV to another election official. 
Because we see since all States aren't doing this the same, we 
do see a lot of opportunity for transcription errors and 
matching errors that can make it difficult for election 
officials to determine whether or not they are taking the right 
person off the list.
    So that would be our suggestion, let's streamline the 
process, let's use the NVRA, the motor voter registration form 
as your indication of intent.
    Mr. Brady. Yes, sir.
    Mr. Bennett. Madam Chairman, Mr. Miller, at the same time 
that Ms. MacNamara's concerns point out a concern about whether 
that question is going to confuse somebody, I think it also 
represents an opportunity to see in the legislation how this 
could help people who, whether they are just graduating from 
college--I talk to a lot of people in Arizona who assume that 
when they move their driver's license, that it automatically 
moves their voter registration and that is not necessarily the 
case. And what this legislation will do, I think in a very 
positive way, is cause all of the States to at least go through 
that process, whether electronic or paper, or in front of a 
person, and reinforce the concept that the voter needs to make 
the decision of whether they want to be registered in the new 
State.
    As Mr. Thomas pointed out, it is not such do you want to 
give up your registration where you were previously, but it is 
a wonderful opportunity and will cause all of the States to ask 
voters, who I think many of them now assume that by moving my 
driver's license, my voter registration is going to 
automatically follow, and this will help them understand that 
that is not necessarily the case. And if we ask the questions 
in the right way, which I think the legislation can be 
constructed and with the assistance of organizations around the 
country to implement it correctly, we will have a very positive 
effect on many voters who find themselves in that situation.
    Mr. Brady. Thank you. If I have any further questions, we 
will submit to you in writing. And I do want to be supportive 
of the bill and support our chair. Thank you.
    The Chairman. I thank the gentlemen.
    Mr. Bennett. Thank you.
    The Chairman. The chair now recognizes the gentleman from 
Indiana, the cosponsor of the bill, Mr. Rokita.
    Mr. Rokita. I thank the chair. Appreciate the discussion 
here, regarding intent versus confusion. Using just a little 
bit of my time, I would like Mr. Thomas to chime in on the 
subject. You may have touched on it earlier go ahead based off 
these two excellent witnesses, how would you referee the 
differing viewpoints since you are unelected.
    Mr. Thomas. Yes, I am unelected and nonpartisan, it is a 
great bill and I think you ought to pass it.
    Mr. Rokita. But you are a politician?
    Mr. Thomas. No, I think it asks the right question, and I 
don't think--there is always room for confusion obviously, but 
this is a straightforward question, ``is this your State for 
voting purposes,'' yes or no? If they say ``no'' the question 
asked by Ms. MacNamara and her testimony is ``what would happen 
if they don't answer, or they answer `no.' '' Well, then, 
particularly if they say no, then we won't take any action, 
they we will be presumed to stay on the file in Michigan and 
won't send them a notice and spend that money. Where now they 
surrender that driver's license, we are getting that 
notification and we are sending them a notice. If they happen 
not to vote in those next two Federal elections we are 
canceling them. Whereas if this voter says, ``no, I am not 
moving to this State for voting purposes,'' we are going to 
leave them on the file. If they don't answer it, then we will 
just use the regular NVRA process and send them a notice.
    Mr. Rokita. Thank you, Chris, I appreciate that. Excuse me, 
Mr. Thomas, I didn't mean to cuss at you by calling you a 
politician. I apologize for that. I want to thank the witness 
for being here, it was very instructive, appreciate it.
    I would like, Madam Chair, to indicate for the record, 
reemphasize for the record that the National Association of 
Secretaries of State, I believe, have just offered to help with 
the particulars about the process and the details. And I know 
by personal experience, as do you that they can put together 
committees in a very bipartisan, nonpartisan way to accomplish 
that, and I think as this bill moves forward, we ought to take 
them up on that. Without objection, if that could be noted.
    The Chairman. Without objection.
    Mr. Rokita. The time I have remaining I want to focus on my 
friend, Ken Bennett's remarks, when he talked about--I think 
Ken when I was still a Secretary of State, it was interstate 
compacts, or some kind of agreement that we had to have State 
by State to share the newly-organized statewide voter 
registration data. Is what you describe in your testimony an 
outcry of that or is that same kind of concept that we were 
dealing with?
    Mr. Bennett. Madam Chair, Congressman, I was coming into my 
role as Secretary of State about the time you were leaving so I 
don't know that I was----
    Mr. Rokita. You mentioned there are 22 States now.
    Mr. Bennett. Yes. We call it the interstate cross-check. It 
wasn't so much a compact in the formal sense of what I would 
interpret compact to mean, but it had just been originated by 
the previous Secretary, now Governor Brewer. Her office had 
joined with six other States and it was just a voluntary 
program to share our data to see if we were having duplicate 
voters.
    Mr. Rokita. I want to unpack that, because I want to see 
how this bill will impact other States going into that.
    Mr. Bennett. Okay.
    Mr. Rokita. And then I will have Mr. Thomas comment. Do you 
have any demographics on these States, are these 22 States, is 
the chief election officer an elected official? Are they 
Secretaries of State? Are they more blue States? Are they more 
red States? If I am looking like you don't have that answer, I 
ask that for you to provide----
    Mr. Bennett. We can get that information to you and the 
rest of the members of the committee. I am sure we have that 
data, and get that to you.
    Mr. Rokita. We are looking for what drives States, the 22 
which is a big number from where we started but only half the 
total number roughly what drives that. And Chris, if you want 
to comment as well, Mr. Thomas.
    Mr. Thomas. Yes, the driver, again, is trying to clean the 
files up; we participated in 2010 and 2012. And the combined 
number, this is the gross number that has not been worked out, 
is over 300,000 duplicate records across these 22 States.
    Mr. Rokita. So the fact that this legislation, if enacted, 
would be a requirement on every State, which as you heard from 
earlier part of today's proceedings I am sensitive to, would a 
silver lining in this legislation be more States entering into 
these compacts to get the job done or not?
    Mr. Thomas. I think so, I think it would be worth their 
while to do so, and this would sort out the 300,000. I am sure 
half of them are people who have moved and are just sitting in 
our files because we sent the two notices and have to wait 
through two Federal elections. If we could move them off and 
leave them where they have now permanently moved, then this 
cross-check really gets down to the nuts and bolts of what is 
left and that is the serious stuff.
    Mr. Rokita. Thank you. In the 20 seconds or so we have 
left, Ms. MacNamara, you worked--the bell or the light ended 
your testimony. Is there anything else you want to get on the 
record?
    Ms. MacNamara. Well, yes. And thank you very much.
    Mr. Rokita. Now you are out of time. Really quickly, in ten 
seconds or so.
    Ms. MacNamara. Right. We would also like the committee to 
consider the interstate-intra-State moves, an awful lot of 
folks move within their State and are completely unaware that 
they need to reregister in most States in order to keep their 
registration active. And so if we were looking in electronic 
ways, and we are looking at compacts as we are looking at ways 
to make our voting rolls more accurate, certainly we would like 
to focus the committee's attention on the fact that many, many 
more folks move within a State than move between States, and 
that also can be a barrier for voters.
    Mr. Rokita. Thank you. I yield back.
    The Chairman. I thank the gentlemen and certainly thank all 
the witnesses and the gentlemen was mentioning about NASS and 
NASED really helping with the questions. I mean, the whole 
impetus of the bill is to make sure that people are not 
duplicate registers, right? That they are not registered in two 
different places. It would seem part of the question is do you 
understand you can only be registered to vote in one place? So 
pick your place, only once so you can only be registered in one 
place. I just throw that out as a NASS or NASED would be 
looking at this there might be a way to phrase a question that 
would answer your concerns as well, I think.
    With that, I certainly again want to thank all of the 
witnesses. I think this is--this bill may be not perfect, I 
think maybe we can make it work. I am appreciative of the 
support that we receive for this bill, we look forward to 
reporting it to the House.
    And with that, I, without objection, would mention that all 
members will have five legislative days to submit to the chair 
additional written questions for the witnesses, which we will 
forward and ask the witnesses to respond to promptly as they 
can so that their answers will be part of the record. And with 
that the hearing is adjourned. Thank you all again.
    [Whereupon, at 12:53 p.m., the committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 82232A.001
    
    [GRAPHIC] [TIFF OMITTED] 82232A.002
    
    [GRAPHIC] [TIFF OMITTED] 82232A.022
    
    [GRAPHIC] [TIFF OMITTED] 82232A.023
    
    [GRAPHIC] [TIFF OMITTED] 82232A.024
    
    [GRAPHIC] [TIFF OMITTED] 82232A.025
    
    [GRAPHIC] [TIFF OMITTED] 82232A.026
    
    [GRAPHIC] [TIFF OMITTED] 82232A.027
    
    [GRAPHIC] [TIFF OMITTED] 82232A.028
    
    [GRAPHIC] [TIFF OMITTED] 82232A.029
    
    [GRAPHIC] [TIFF OMITTED] 82232A.030
    
    [GRAPHIC] [TIFF OMITTED] 82232A.031
    
    [GRAPHIC] [TIFF OMITTED] 82232A.032
    
    [GRAPHIC] [TIFF OMITTED] 82232A.033
    
    [GRAPHIC] [TIFF OMITTED] 82232A.034
    
    [GRAPHIC] [TIFF OMITTED] 82232A.035
    
    [GRAPHIC] [TIFF OMITTED] 82232A.036
    
    [GRAPHIC] [TIFF OMITTED] 82232A.037
    
    [GRAPHIC] [TIFF OMITTED] 82232A.038
    
    [GRAPHIC] [TIFF OMITTED] 82232A.039
    
    [GRAPHIC] [TIFF OMITTED] 82232A.040
    
    [GRAPHIC] [TIFF OMITTED] 82232A.041
    
    [GRAPHIC] [TIFF OMITTED] 82232A.042
    
    [GRAPHIC] [TIFF OMITTED] 82232A.043
    
    [GRAPHIC] [TIFF OMITTED] 82232A.044
    
    [GRAPHIC] [TIFF OMITTED] 82232A.045
    

</pre></body></html>
